HHS/OIG, Audit -"Audit of Selected States' Medicaid Disproportionate Share Hospital
Programs,"(A-06-03-00031)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit
of Selected States' Medicaid Disproportionate Share Hospital Programs," (A-06-03-00031)
March 16, 2006
Complete
Text of Report is available in PDF format (539 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report consolidates the results of 10 individual reviews of States' Medicaid disproportionate
share hospital (DSH) programs, conducted at the request of CMS.
Two common objectives of our individual reviews were to determine whether (1) States
complied with the hospital-specific DSH limits imposed by section 1923(g) of the Social Security
Act (the Act) and (2) hospitals returned any DSH payments to States through intergovernmental
transfers of funds.  Nine of the ten States reviewed did not comply with the hospital-specific
DSH limits imposed by section 1923(g) of the Act.  As a result, DSH payments exceeded
the hospital-specific limits by approximately $1.6 billion ($902 million Federal share),
including:  (1) four States that made approximately $679 million in excess DSH payments
based primarily on historical costs rather than actual costs; and (2) eight States that made
approximately $223 million in excess DSH payments because they included unallowable costs
in their calculations of hospital-specific limits.  As to our second objective, three
States required hospitals to return DSH payments totaling approximately $3.6 billion through
intergovernmental transfers.
We recommended that CMS: (a) ensure that the monetary recommendations concerning DSH
payments that exceeded the hospital-specific limits have been resolved; (b) establish regulations
requiring States to (1) implement procedures to ensure that future DSH payments are adjusted
to actual incurred costs, (2) incorporate these adjustment procedures into their approved
State plans, and (3) include only allowable costs as uncompensated care costs in their DSH
calculations; and (c) strengthen its review and approval of State plans to ensure consistency
with Federal requirements and use the results of audits conducted under MMA as part of its
review process.  In comments on the draft report, CMS agreed with our recommendations
but interpreted our first recommendation to apply only prospectively, not as a requirement
to seek recovery of the excess DSH payments we had identified.  We maintain that the
Federal share of these excess payments should be recouped.